HHS/OIG, Audit -"Review of Outpatient Psychiatric Services Provided by the Waterbury Hospital for the Fiscal
Year Ending September 30, 1997,"(A-01-99-00501)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Psychiatric Services Provided by the Waterbury Hospital for the Fiscal Year Ending September 30,
1997," (A-01-99-00501)
October 5, 1999
Complete
Text of Report is available in PDF format (1.86 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Based on a statistical sample, we estimate that the hospital submitted at least $1,909,961 in outpatient psychiatric
charges that did not meet Medicare criteria for reimbursement.  Specifically, charges for psychiatric care were not
properly supported by medical records or were otherwise medically unnecessary.  We also identified $212,372 in costs
ineligible for Medicare reimbursement that the hospital claimed on its fiscal year (FY) 1997 cost report.  We recommended
that the hospital ensure that charges for psychiatric services are covered and properly documented in accordance with Medicare
requirements.  We also recommended that the hospital establish nonreimbursable cost centers or otherwise exclude costs
related to noncovered services from its Medicare cost reports. We are providing the results of our review to the fiscal
intermediary so that it can apply the appropriate adjustments of $1,909,961 and $212,372 to the hospital's FY 1997 Medicare
cost report.